COUNSEL PRESS
May 29,2020
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Attn.: Clerk of the Court
Re:

Chrimar Systems, Inc. v. ALE USA Inc.
Docket No. 19-1124

Dear Clerk of the Court:
Enclosed please find the Reply Brief in support of the petition for writ of certiorari
listed above for filing. Pursuant to SCR 15.5, our client wishes to waive the 14-day
waiting period before distribution, and requests that distribution be made no later than
June 9, 2020.
Thank you for your understanding and cooperation

Very truly yours,

COUNSE~~
Marianna lannotta
Paralegal

Counsel Press Inc. 460 West 34~~> Street New York, NY 10018 212-685-9800 tel 800-427-7325 toll free www.counselpress.com
Boston, MA Buffalo, NY Chicago, IL Los Angeles, CA Iselin, NJ New York, NY Philadelphia, PA Richmond, VA Rochester, NY Syracuse, NY Walton, NY Washington, D.C.

